SIDLEY AUSTIN LLP

1501 K STREET, N.W.
S | D L EY WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8291
JGREEN@SIDLEY.COM
AMERICA « ASIA PACIFIC « EUROPE

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

No. 19-814

Tony DeShawn McCoy,

Petitioner
v.

United States

 

Respondent.

As required by Supreme Court Rule 33.1(h), I, Jeffrey T. Green, certify that
the Brief of the National Association of Criminal Defense Lawyers as Amicus
Curiae in support of Petitioner in the foregoing case contains | , 204 words,
excluding the parts of the document that are excluded by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 27, 2020.

 

NATIONAL ASSOCIATION OF

CRIMINAL DEFENSE
LAWYERS

1501 K Street NW

Washington, DC 20005

(202) 736-8000

jgreen@sidley.com

Sidley Austin (OC) LLP is a Delaware limited liablity partnership doing business as Sidley Austin LLP and practicing n afflition with other Sidley Austin partnerships.
